           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     UNIVERSITIES’ USE OF SOCIAL
    SECURITY NUMBERS AS STUDENT
       IDENTIFIERS IN REGION X

    March 2005     A-08-05-15033




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   March 8, 2005                                                                     Refer To:

To:     Carl L. Rabun
        Regional Commissioner
         Seattle

From:   Inspector General

Subject: Universities’ Use of Social Security Numbers as Student Identifiers in Region X
        (A-08-05-15033)


        OBJECTIVE
        Our objective was to assess universities’ use of Social Security numbers (SSN) as
        student identifiers and the potential risks associated with such use.

        BACKGROUND
        Millions of students enroll in educational institutions each year. To assist in this
        process, many colleges and universities use students’ SSNs as personal identifiers.
        The American Association of Collegiate Registrars and Admissions Officers found that
        half of member institutions that responded to a 2002 survey used SSNs as the primary
        student identifier.1 Although no single Federal law regulates overall use and disclosure
        of SSNs by colleges and universities, the Privacy Act of 1974, the Family Educational
        Rights and Privacy Act, and the Social Security Act, contain provisions that govern
        disclosure and use of SSNs. See Appendix A for more information on the specific
        provisions of these laws.

        We selected a sample of eight educational institutions in Region X.2 For each selected
        school, we interviewed university personnel and reviewed school policies and practices
        for using SSNs. In addition, we identified two schools outside of Region X that no
        longer used SSNs as student identifiers and determined reasons for this change and
        best practices that could be adopted by other schools. See Appendices B and C for
        additional details regarding the scope and methodology of our review and a list of the
        universities we contacted, respectively.

        1
         Academic Transcripts and Records: Survey of Current Practices, April 2002 Special Report, the
        American Association of Collegiate Registrars and Admissions Officers.
        2
            Region X consists of the following four states: Washington, Oregon, Idaho, and Alaska.
Page 2 – Carl L. Rabun


RESULTS OF REVIEW

Based on our interviews with university personnel and reviews of school policies and
practices, we are concerned about universities’ use of SSNs. We identified instances in
which universities used SSNs as the primary student identifier or for other purposes,
even when another identifier would suffice. Based on our previous audit and
investigative findings, we know that unnecessary use of SSNs increases the potential
for unscrupulous individuals to illegitimately gain access to these numbers and misuse
them, thus creating SSN integrity issues. Some university personnel with whom we
spoke shared our concern and have taken steps to reduce SSN use.

UNIVERSITIES’ USE OF SSNs

Despite the increasing threat of identity theft, some colleges and universities continue to
use SSNs for various purposes. Our visits to four colleges and universities and
telephone interviews with four others in Region X disclosed that universities used SSNs
as the primary student identifier and for admissions applications, class registration,
access to computer systems, class rosters, and grade reports.

In Region X, one university official told us her university requests SSNs during
admissions and uses them as the primary student identification number. She also told
us the State University System requests students’ SSNs so it can track student
movement and educational outcomes through the K-12 and higher education systems.
An official at another university told us her school uses SSNs because they are unique
identifiers and are helpful when comparing student transcripts and name changes. The
university official also stated her school allows students to use another identification
number, although students must formally request to do so.

Another university official told us his Information Technology department uses SSNs to
confirm students’ identities and ensure the school has correct student records. Also, an
official at another university told us her school primarily uses SSNs to retrieve
information when student identification numbers are not readily available and to
differentiate between student records with the same name.

POTENTIAL RISKS ASSOCIATED WITH COLLECTING AND USING SSNs

While the schools we contacted in Region X did not report any instances of identity theft
or fraud, universities’ collection and use of SSNs entail certain risks. Each time an
individual divulges his or her SSN, the potential for a thief to illegitimately gain access to
bank accounts, credit cards, driving records, tax and employment histories and other
private information increases. Because many universities still use SSNs as the primary
student identifier, students’ exposure to identity theft and fraud remains today. We
believe the following examples illustrate students’ risk of exposure to such activity
nationwide and in Region X.
Page 3 – Carl L. Rabun


•        A university professor in Washington was indicted on 33 counts of mail fraud in a
         scam using students’ SSNs. The professor allegedly accessed the university’s
         records system and used students’ information to obtain new SSN cards by
         posing as a parent. The professor then allegedly used the SSNs to obtain credit
         cards and birth certificates.

•        California authorities arrested a man suspected of stealing the names and SSNs
         of 150 college students and using that information to obtain credit cards and
         charge over $200,000 in the students’ names.

•        A New York school notified about 1,800 students that their SSNs and other
         personal information had been posted on a university website. The university
         shut down the website and apologized to the students in an e-mail.

•        A student at a Texas university was accused of hacking into the school’s
         computer network and downloading the names and SSNs of over 55,000
         students, faculty, and alumni.

•        A gentleman discovered a computer printout in a trash bin near a Pennsylvania
         university listing SSNs and other personal data for hundreds of students.

SOME UNIVERSITIES AND STATES HAVE TAKEN STEPS TO LIMIT SSN USE

Numerous incidences of identity theft at colleges and universities and the recognition
that SSNs are linked to vast amounts of personal information have led some schools to
reconsider the practice of using SSNs as primary student identifiers. Several schools
have taken steps to reduce their reliance on SSNs or have turned to alternative
identifiers. In addition, some States have enacted laws to regulate college and
university use of SSNs.

University personnel we contacted in Region X acknowledged the potential risks for
identity theft and fraud, and some have taken steps to reduce their reliance on SSNs.
The Registrar at Idaho State University told us her school does not use SSNs as the
primary student identifier. Instead, it uses a six-digit identification number to track
students within the university system. Also, the Assistant Registrar at Seattle University
told us her university issues student identification numbers and has not used SSNs as
the primary student identifier since 1997. In addition, the Registrar at the University of
Washington told us his university has never used SSNs as the primary student identifier
and no longer displays them on student records. Further, the State of Washington
requires that institutions of higher education use personal identifiers that are not SSNs.3

In addition, we identified two schools outside of Region X that no longer used SSNs as
student identifiers and determined reasons for this change and best practices that could
be adopted by other schools. In 2003, the Georgia Institute of Technology (Georgia
Tech) stopped using SSNs of students, faculty, and staff on identification cards and as
3
    Rev. Code Wash. (ARCW) § 28B.10.042.
Page 4 – Carl L. Rabun


the primary means of identification in campus databases because of increased identity
theft concerns. To replace SSNs, Georgia Tech created the Georgia Tech Identification
Number, a unique number the school uses to identify students in most major campus
databases. The Associate Registrar told us the conversion from using SSNs as the
primary student identifier took about 2 years of planning but was not difficult. In fact,
she stated the actual conversion took only 1 weekend. Georgia Tech has provided
information to other schools to assist them in their SSN conversion efforts. Georgia
Tech collects SSNs for certain services, for example, payroll, immigration and financial
aid.

In 2003, the University of Florida replaced the SSN as a student identifier and key to
student records with an eight-digit public identification number to reduce the visibility of
the SSN during normal university business. The University of Florida changed to an
eight-digit number so students would not confuse it with their SSN. Students also have
a Gatorlink username and password for on-line class registration and other applications.
According to the University Registrar, the conversion from SSNs to an eight-digit
student identifier was challenging as it affected every administrative system. He told us
it took the university 1-2 years of planning before the conversion. The Registrar also
told us that faculty members no longer have access to students’ SSNs. While some
university offices (admissions, registrar, student financial affairs and university financial
services) still need SSNs to perform their duties, faculty and staff do not ask for SSNs,
and students are informed that University personnel should not ask for their SSN. The
University Registrar told us the University of Florida offices will not collect or use SSNs
unless they are needed for State and federally mandated requirements.

Other colleges and universities have taken steps to limit SSN use. Arizona State
University, the University of Michigan, Penn State University, the University of Maryland,
the University of Illinois, and the University of Texas have specific policies regarding
SSN disclosure and use and have stopped using SSNs as the primary student
identification number. In addition, several States, including Arizona, New York,
Maryland, Rhode Island, and Wisconsin have enacted laws to regulate college and
university SSN use.
Page 5 – Carl L. Rabun


CONCLUSION AND RECOMMENDATIONS
Despite the potential risks associated with using SSNs as primary student identifiers,
many colleges and universities continue this practice. While we recognize that SSA
cannot prohibit colleges and universities from using SSNs as student identifiers, we
believe SSA can help reduce potential threats to SSN integrity by encouraging schools
to limit SSN collection and use. We also recognize the challenge of educating such a
large number of educational institutions. However, given the potential threats to SSN
integrity, such a challenge should not discourage SSA from taking steps to safeguard
SSNs. Accordingly, we recommend that SSA:

1. Coordinate with colleges/universities and State/regional educational associations to
   educate the university community about the potential risks associated with using
   SSNs.

2. Encourage colleges and universities to limit their collection and use of SSNs.

3. Promote the best practices of educational institutions that no longer use SSNs as
   student identifiers.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendations. We believe SSA’s response and planned
actions adequately address our recommendations and will help strengthen SSN
integrity. SSA also provided technical comments that we considered and incorporated,
where appropriate. SSA’s comments are included in Appendix D.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Federal Laws that Govern Disclosure and Use of the Social Security
             Number

APPENDIX B – Scope and Methodology

APPENDIX C – Educational Institutions Contacted

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                                    Appendix A
Federal Laws that Govern Disclosure and Use of the
Social Security Number
The following Federal laws establish a general framework for disclosing and using the
Social Security number (SSN).

The Privacy Act of 1974 (5 U.S.C. § 552a, note; Pub. L. No. 93-579, §§ 7(a) and 7(b))

The Privacy Act of 1974 provides that it is unlawful for a State government agency to
deny any person a right, benefit, or privilege provided by law based on the individual’s
refusal to disclose his/her SSN, unless such disclosure was required to verify the
individual’s identity under a statute or regulation in effect before January 1, 1975.
Further, under Section 7(b), a State agency requesting that an individual disclose
his/her SSN must inform the individual whether the disclosure is voluntary or
mandatory, by what statutory or other authority the SSN is solicited and what uses will
be made of the SSN.

The Family Educational Rights and Privacy Act (20 U.S.C. § 1232g; 34 C.F.R. Part 99)

The Family Educational Rights and Privacy Act (FERPA) protects the privacy of student
education records. FERPA applies to those schools that receive funds under an
applicable program of the U.S. Department of Education. Under FERPA, an
educational institution must have written permission from the parent or eligible student
to release any personally identifiable information (which includes SSNs) from a
student’s education record.1 FERPA does, however, provide certain exceptions in
which a school is allowed to disclose records without consent. These exceptions
include disclosure without consent to university personnel internally who have a
legitimate educational interest in the information, to officials of institutions where the
student is seeking to enroll/transfer, to parties to whom the student is applying for
financial aid, to the parent of a dependent student, to appropriate parties in compliance
with a judicial order or lawfully issued subpoena, or to health care providers in the event
of a health or safety emergency.




1
  FERPA gives parents certain rights with respect to their children’s education records. These rights
transfer to the child when the child reaches the age of 18 or attends an institution of postsecondary
education. Children that have been transferred rights are referred to as “eligible students.”

                                                   A-1
The Social Security Act

The Social Security Act provides that “Social Security account numbers and related
records that are obtained or maintained by authorized persons pursuant to any
provision of law, enacted on or after October 1, 1990, shall be confidential, and that no
authorized person shall disclose any such Social Security account number or related
record”
(42 U.S.C. §405(c)(2)(C)(viii)). The Social Security Act also provides that “[w]hoever
discloses, uses, or compels the disclosure of the Social Security number of any person
in violation of the laws of the United States; shall be guilty of a felony . . .” (42 U.S.C.
§408(a)(8)).




                                         A-2
                                                                         Appendix B

Scope and Methodology
To accomplish our objective, we

•   interviewed selected university personnel responsible for student
    admissions/registrations;

•   reviewed Internet websites of eight colleges and universities that we either visited or
    interviewed by telephone;

•   reviewed applicable laws and regulations; and

•   reviewed selected studies, articles and reports regarding universities’ use of Social
    Security numbers as student identifiers.

We visited four educational institutions and interviewed personnel at four others to learn
more about their policies and practices for using Social Security numbers as student
identifiers. In addition, we identified two schools that no longer used Social Security
numbers as student identifiers and determined reasons for this change and best
practices that could be adopted by other schools. Our review of internal controls was
limited to gaining an understanding of universities’ policies over the collection, protection
and use/disclosure of SSNs. The Social Security Administration entity reviewed was the
Office of the Deputy Commissioner for Operations. We conducted our audit from June
through October 2004 in accordance with generally accepted government auditing
standards.
                                                                             Appendix C

Educational Institutions Contacted
We interviewed personnel at eight educational institutions in Region X. The following
table shows the names and locations of these schools as well as their total student
enrollments.



                          School                           Location          Student Enrollment

    1     University of Washington                 Seattle, Washington             48,000

    2     Portland State University                Portland, Oregon                22,409

    3     Idaho State University                   Pocatello, Idaho                13,666

    4     University of Alaska – Anchorage         Anchorage, Alaska               13,664

    5     Seattle University                       Seattle, Washington             3,765

    6     Lewis-Clark State College                Lewiston, Idaho                 3,471

    7     Pacific Northwest College of Art         Portland, Oregon                2,800

    8     Alaska Pacific University                Anchorage, Alaska                673

Source: We determined student enrollment by reviewing university websites.
                                                                        Appendix D
Agency Comments
Thank you for the opportunity to comment on the draft OIG audit of Universities’ Use of
Social Security Numbers (SSNs) as Student Identifiers in Region X. We have a few
general comments about the draft, as well as responses to the OIG recommendations.

Recommendations

Coordinate with colleges/universities and State/regional educational associations to
educate the university community about the potential risks associated with using SSNs
as student identifiers.
We agree with this recommendation. As we continue our regular and ongoing public
affairs outreach, we will stress to the institutions and educational associations in the
Region the potential risks associated with using SSNs as student identifiers.
Encourage colleges and universities to limit their collection and use of SSNs.
We agree with this recommendation. As we continue our regular and ongoing public
affairs outreach, we will discourage the collection and use of the SSN by colleges and
universities.
Promote the best practices of educational institutions that no longer use SSNs as
student identifiers.
We agree with this recommendation. As we continue our regular and ongoing public
affairs outreach, we will cite the examples given in this audit to the institutions and
associations contacted. However, it would be helpful if OIG can provide more detail on
the experiences of the universities noted on page 5 of the audit, including any available
contact information. Any Seattle Region university wishing to follow the lead of one of
the institutions cited as moving away from a reliance on SSNs will likely want to discuss
details with that university.


If your staff have any questions, they may contact Tim Beard, RSI Programs and
Systems Team, at 206 615-2125, or by email at Tim.Beard@ssa.gov.


                                             Carl L. Rabun
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1605

   Jeff Pounds, Audit Manager, (205) 801-1606

Acknowledgments

In addition to those named above:

   Neha Smith, Auditor-in-Charge

   Kathy Youngblood, Senior Auditor

   Susan Phillips, Auditor

   Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-08-05-15033.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
